  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


      Recap of Procurement Problems
       Identified in Audits of Electric
                Cooperatives




             Dallas Field Office
              Office of Audits
DD-11-06                      September 2006
                                                                             Office of Inspector General

                                                                             U.S. Department of Homeland Security
                                                                             Dallas Field Office, Office of Audits
                                                                             3900 Karina Street, Room 224
                                                                             Denton, Texas 76208




                                               September 8, 2006


MEMORANDUM FOR:                       John R. (Jack) D’Araujo, Jr.
                                      Director, Recovery Division
                                      Federal Emergency Management Directorate



FROM:                                 Tonda L. Hadley
                                      Field Office Director

SUBJECT:                              Recap of Procurement Problems Identified in Audits of
                                       Electric Cooperatives
                                      Audit Report Number DD-11-06

The purpose of this report is to bring to your attention recurring procurement problems we have
identified in audits of electric cooperatives and to request your assistance in preventing similar
problems from occurring in future disasters. We have included selected information from nine audit
reports of the Federal Emergency Management Directorate (FEMA) Public Assistance (PA) sub
grants awarded to electric cooperatives in FEMA Regions V, VI and VIII (see Exhibit). We
performed the audits under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards.


                         RECAP OF PROCUREMENT PROBLEMS IDENTIFIED

From September 2002 to January 2006, we issued nine audit reports containing findings that electric
cooperatives did not follow federal procurement standards in awarding contracts for utility repairs
and debris removal work.1 As a result, full and open competition did not occur and FEMA had no
assurance that contract costs were reasonable. The nine audits covered $59.2 million in electric
cooperative subgrantee claims, of which $39.3 million were for costs incurred under non-
competitive contracts.

FEMA grants a substantial amount of federal funding annually to electric cooperatives for natural
disasters. For example, FEMA Regions V, VI, VII, and VIII provided $391 million in federal grants
to electric cooperatives from 2000 through 2004.2 Based on our experience, we estimate that more


1
    Includes work of legacy FEMA Office of Inspector General.
2
    The federal share of the $391 million ranged from 75 to 100 percent.

                                                             1
than half of that funding reimburses electric cooperatives for costs incurred under contracts that do
not comply with federal procurement standards.


Federal procurement standards at 44 CFR 13.36:

       •   Require the performance of procurement transactions in a manner providing full and open
           competition except under certain circumstances. (13.36(c)(1)).
       •   Allow procurement by noncompetitive proposals only when the award of a contract is
           infeasible under small purchase procedures [$100,000 or less], sealed bids, or competitive
           proposals and certain circumstances apply. One acceptable circumstance is when the
           public exigency or emergency for the requirement will not permit a delay resulting from
           competitive solicitation. (13.36(d)(4)(i)).
       •   Require that sub-grantees maintain records sufficient to detail the significant history of
           the procurement, including the rationale for the method of procurement, the basis for
           contractor selection, and basis for the contract price. (13.36(b)(9)).
       •   Require subgrantees to maintain a contract administration system that ensures contractors
           perform in accordance with the terms, conditions, and specifications of their contracts or
           purchase orders. (13.36(b)(2)).
       •   Prohibit the use of time-and-material-type contracts unless a determination is made that
           no other contract is suitable and provided that the contract include a ceiling price that the
           contractor exceeds at its own risk. (13.36(b)(10)).
       •   Require a cost analysis when adequate price competition is lacking. (13.36(f)(1)).
       •   Require profit to be negotiated as a separate element of the price for each contract in
           which there is no price competition and in all cases where cost analysis is performed.
           (13.36(f)(2)).

Under 44 CFR 13.43(a)(2), Remedies for noncompliance, failure to comply with applicable statutes
or regulations can result in the disallowance of all or part of the costs of the activity or action not in
compliance. However, we did not begin questioning contract costs solely on the basis of improper
contracting until 2005. Further, we did not question contract costs incurred during periods of
exigency because the procurement standards allow applicants to relax procurement standards when
exigent circumstances exist. We considered the lack of power to be an exigent circumstance and,
therefore, did not question contract costs (on reports issued after 2005) for work performed before
the electrical cooperatives could fully restore power to all customers, generally a month or two after
the disaster occurs. We contend that this approach to questioning costs is conservative and
reasonable, especially considering that FEMA written guidelines state that this period of relaxed
procurement standards generally applies to the first 70 hours immediately after a disaster.

As shown in the table below, electric cooperatives used non-competitive, time-and-material (T&M)
contracts without cost ceilings, did not maintain sufficient records for procurement history, and did
not perform cost analyses.




                                                     2
                             Report #                      Violations of Procurement Standards
    Subgrantee                /Date                             Under 44 CFR Subsection:

                                        13.36(b)(9)   13.36(b)(10)   13.36(c)(1)    13.36(f)(1)    13.36(f)(2)   13.36(f)(4)

                                                                                                                 Cost-Plus-
                                        Maintain        T&M           Full and                       Profit      Percentage-
                                        Sufficient     Contract        Open        Cost Analysis   Negotiated      of-Cost
                                         Records      Restrictions   Competition   Requirement     Separately    Restrictions

Claiborne Electric           C-10-02
Cooperative, Inc.            9/16/02        X              X             X
Lake Country Electric        DD-04-03
Cooperative                  4/28/03        X              X             X
Minnkota Power               DD-01-04
Cooperative, Inc             10/29/03       X              X             X              X              X              X
Southwest Arkansas           C-01-03
Electric Cooperative, Inc.   12/16/02       X              X             X              X
Cookson Hills Electric       DD-13-04
Cooperative, Inc.            8/9/04                        X             X              X              X              X
Kiamichi Electric            DD-08-05
Cooperative, Inc.            7/11/05        X              X             X              X              X
Western Farmers Electric     DD-09-05
Cooperative (DR-1355)        9/1/05         X              X             X              X              X
Western Farmers Electric     DD-06-06
Cooperative (DR-1401)        1/17/06        X              X             X              X              X
Central Rural Electric       DD-06-05
Cooperative, Inc.            5/17/05        X              X             X              X              X




Generally, these violations occurred because the electric cooperatives either disregarded these
procurement standards or were not aware of them. Further, neither the states, as grantees, nor
FEMA, as the responsible federal funding source, enforced the standards when the electric
cooperatives submitted their claims for reimbursement of disaster costs. Accordingly, we have
consistently recommended that FEMA Regional Directors, in conjunction with the states, develop
and implement procedures for future disasters to ensure that subgrantees are knowledgeable of and
follow federal procurement standards. However, we have seen no improvement in electrical
cooperatives’ compliance with procurement standards; and FEMA has recovered none of the $10.2
million we questioned in contract costs for the nine audits.

Electric cooperative officials and state grantees contended that federal procurement standards are too
restrictive and impractical for them to use for disaster recovery work. However, these federal
procurement standards are in place to ensure that grantees and subgrantees provide full and open
competition and obtain fair and reasonable prices for work funded under FEMA grants. Therefore,
FEMA Regional Directors and state grantees must work together to improve compliance.

We recommend that the Director, FEMA Recovery Division, require all FEMA Regional Directors
to:

     1. Provide additional training on federal procurement standards to grantees.

     2. Require grantees to develop and implement procedures for future disasters to ensure that
        electric cooperatives are knowledgeable of and follow federal procurement standards.


                                                               3
   3. Require grantees to enforce compliance with federal procurement standards for FEMA
      Public Assistance grants to electric cooperatives by disallowing costs incurred under
      contracts that do not comply with the standards.


             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We provided a discussion draft report to FEMA officials on July 29, 2006; and, on August 17, 2006,
we discussed the report with the Chief, Public Assistance, Recovery Division, who agreed with our
findings and recommendations.

Please advise this office by November 8, 2006, of the actions taken or planned to implement our
recommendations. Please include target completion dates for any planned actions. Should you have
any questions concerning this report, please call me, or your staff may contact Paige Hamrick at
(940) 891-8900.




                                                4
                                                                                                                              EXHIBIT




   AUDIT REPORTS ISSUED FROM 2002 TO 2006 ON ELECTRIC COOPERATIVES IN
                      FEMA REGIONS V, VI, AND VIII
                                                                                     Questioned                  Non-          Percent
 Audit                                                                                Improper      Percent    Competitive     Of Total
 Report      Report   Disaster          Electric                         Total       Contracting    of Total    Contract      Claim Not
  Date        No.      Year            Cooperative            State      Claim          Costs        Claim      Amount        Competed


                                 Claiborne Electric
09/16/2002 C-10-02     1998      Cooperative, Inc.            LA       $ 1,690,000     $       0     0.0%       $ 1,159,274     69%
                                 Lake Country Electric
04/28/2003 DD-04-03    1999      Cooperative                  MN         2,100,000             0     0.0%         1,593,498     76%
                                 Minnkota Power
10/29/2003 DD-01-04    1999      Cooperative, Inc             ND         6,760,000             0     0.0%         4,015,277     59%
                                 Southwest Arkansas
12/16/2002 C-01-03     2000      Electric Cooperative, Inc.   AR        15,170,000             0     0.0%        11,433,363     75%
                                 Cookson Hills Electric
08/09/2004 DD-13-04    2000      Cooperative, Inc.            OK         5,200,000             0     0.0%           907,274     17%
                                 Kiamichi Electric
07/11/2005 DD-08-05    2000      Cooperative, Inc.            OK         9,650,000      4,883,714   50.6%         8,381,786     87%
                                 Western Farmers Electric
09/01/2005 DD-09-05    2000      Cooperative                  OK         2,050,000             0     0.0%           592,643     29%
                                 Western Farmers Electric
01/17/2006 DD-06-06    2002      Cooperative                  OK        11,100,000     $3,480,799   31.4%         7,947,354     72%
                                 Central Rural Electric
05/17/2005 DD-06-05    2002      Cooperative, Inc.            OK         5,450,000      1,802,562   33.1%         3,239,787     59%

                                                                       $59,170,000    $10,167,075   17.2%       $39,270,256     66%




                                                                   5
